1

No. 19-76

2

4

DEPUTY SHERIFF MARTIN MARQUARDT,
Petitioner,
v.
WILLIAM FLETCHER,
Respondent.

5

CERTIFICATE OF SERVICE

COBLENTZ PATCH DUFFY & BASS LLP

One Montgomery Street, Suite 3000, San Francisco, California 94104-5500
415.391.4800 • Fax 415.989.1663

3

6
7
8
9
10
11

I hereby certify that on this 1st day of August, 2019, I served
RESPONDENT WILLIAM FLETCHER’S MOTION FOR EXTENSION OF TIME TO
FILE BRIEF IN OPPOSITION, PURSUANT TO RULE 30.4
on all parties required to be served in the above-captioned case. I caused copies of the document
to be placed in envelopes addressed to the individuals named in the service list below, and
delivered the envelopes to Federal Express, for overnight delivery.
SERVICE LIST

12
13
14
15
16
17
18
19
20

LORNA K. JORGENSEN
Ada County Deputy Prosecuting
Attorney
Counsel of Record
JAN M. BENNETTS
Ada County Prosecuting Attorney
200 W. Front Street, Room 3191
Boise, Idaho 83702
Telephone: (208) 287-7700
Email: ljorgensen@adacounty.id.gov
Counsel for Petitioner
RICHARD H. SEAMON
1297 Highland Drive
Moscow, Idaho 83843
Counsel for Petitioner

21
22
23
24
25
26
27
28

Katharine Van Dusen
Counsel of Record for Respondent

